In The

Supreme Court of tfjo ®nttetr States?
Michelle Stopyra Yaney,
Petitioner,
v.
Superior Court County Of Riverside,
Palm Springs Division
The Honorable Judge Kira Klatchko,
Respondents.
Case Number S263360

PROOF OF SERVICE
I, Michelle Stopyra Yaney, do swear that on this
date, February 5, 2021, as required by Supreme
Court Rule 29, I sent to a third'party server the
enclosed; WRIT OF CERTIORARI to serve on
each party and on every other person required
to be served including the responding court, the
California Supreme Court.
I declare I have diligently obtained permission
to send the enclosed Writ of Certiorari via
Truefiling to the interested party the State Bar
of California. I declare I did so by personally
speaking to Mr. James Chang, who is listed as
the attorney for the State Bar of California in
this court. I declare Mr. Chang agreed to allow
me to send to him electronic service of all
documents regarding my case with his agency.
1

I declare I have additionally instructed a third*
party service to deposit an envelope containing
the writ of certiorari in the United States Postal
Service properly. The envelope was properly
addressed to the State Bar of California and the
Supreme Court of California, for delivery
within 3 calendar days. I declare the mailing
addresses and email addresses service was sent
to are as follows.
The State Bar of California
Robert Retana, James Chang
845 South Figueroa Street,
Los Angeles, California
90017*2515
Phone: (213) 765*1000
Fax: (213)765*1168
robert.retana@calbar.ca.gov
james.chang@calbar.ca.gov
The California Supreme Court
Chief Justice Tani Cantil-Sakauye
350 McAllister St.
San Francisco. Ca. 94102
Phone: 415*865*7000
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on February 5, 2021.
L Michelle Stopyra^Smey^)

2

